No:

IN THE
SUPREME COURT OF THE UNITED STATES

CARL SAMSON,
Petitioner,
v.
UNITED STATES OF AMERICA,

Respondent.
DECLARATION VERIFYING TIMELY FILING

Petitioner, CARL SAMSON, through undersigned counsel and pursuant to Sup. CT. R. 29.2
and 28 U.S.C. ยง 1746, declares that the Petition for Writ of Certiorari filed in the above-styled
matter was placed in the U.S. mail in a prepaid first class envelope, addressed to the Clerk of the
Supreme Court of the United States, on the 30th day of August, 2021, which is the date that the

petition for writ of certiorari is due.

RICHARD C. KLUGH, ESQ.
Counsel for Petitioner
Courthouse Center

40 N.W. 3rd Street, PH 1
Miami, Florida 33128

Tel. No. (305) 536-1191

Miami, Florida
August 2021
